=>
I

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B peed contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-472

HOLLYFRONTIER CHEYENNE
REFINING, LLC, et al.,
Petitioners,

v.

RENEWABLE FUELS ASSOCIATION, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
STATES OF WYOMING, TEXAS, LOUISIANA, UTAH, OKLAHOMA, WEST VIRGINIA,
AND MONTANA IN SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 6029 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of March, 2021.
J am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOFARY-State of Nebraska v Chh
i RENEE J. GOSS: 9. .

Affiant 40662

 

 

‘My Comm. Exp. September 5, 2023

Notary Public
